                 U.S. ELECTION ASSISTANCE
                        COMMISSION
                 OFFICE OF INSPECTOR GENERAL




                      FINAL AUDIT REPORT:

                  ADMINISTRATION OF PAYMENTS
                RECEIVED UNDER THE HELP AMERICA
                 VOTE ACT BY THE ILLINOIS STATE
                      BOARD OF ELECTIONS




Report No.
E-HP-IL-07-06
October 2006
                          U.S. ELECTION ASSISTANCE COMMISSION
                                  OFFICE OF INSPECTOR GENERAL
                                  1225 New York Ave. NW - Suite 1100
                                         Washington, DC 20005


                                                                           October 18, 2006


Memorandum

To:          Thomas Wilkey
             Executive Director

From:        Curtis Crider
             Inspector General

Subject:     Final Audit Report on the Administration of Payments Received Under the
             Help America Vote Act by the Illinois State Board of Elections (Assignment
             No. E-HP-IL-07-06)

        This report presents the results of the subject audit. The objectives of the audit
were to determine whether Illinois (1) expended Help America Vote Act (HAVA)
payments in accordance with the Act and related administrative requirements and (2)
complied with the HAVA requirements for replacing punch card or lever voting
machines, for appropriating a 5 percent match for requirements payments, for
establishing an election fund, and for maintaining state expenditures for elections at a
level not less than expended in fiscal year 2000.

       The report concluded that Illinois generally complied with requirements except as
noted below:

      9 Counties did not keep records that sufficiently accounted for equipment purchased
        with HAVA funds.

      9 Illinois advanced HAVA funds to counties and to the Office of the Secretary of
        State that exceeded the recipients immediate cash needs. This resulted in lost
        interest of about $36,000 to State Vote Fund.

      9 Illinois expended HAVA funds of $3,889 for activity booklets intended to provide
        students with an understanding about electing the President. We questioned the
        costs because the booklets appeared to be targeted to children and not voters.

      9 Illinois miscalculated its matching fund requirement for Section 251 payments,
        and did not deposit into the Vote Fund interest earned on the matching funds
        which it had appropriated. Consequently, Illinois owes the Vote Fund additional
        matching funds $189,223 and interest of $227,996
       In an October 2, 2006 response to the draft report (Appendix 2), Illinois agreed
with the findings on equipment records and cash management and disagreed with the
findings on the activity booklets and the matching funds.

        Please provide us with your written response to the recommendations included in
this report by December 22, 2006. Your response should contain information on actions
taken or planned, including target dates and titles of EAC officials responsible for
implementing the recommendations

       Section 5(a) of the Inspector General Act (5 U.S.C. § App.1) requires the Office
of Inspector General to list this report in its semiannual report to Congress.

       If you have any questions regarding this report, please call me at (202) 566-3125.
               BACKGROUND

               The Help America Vote Act of 2002 (HAVA or the Act) created the
HELP AMERICA   U.S. Election Assistance Commission (EAC or Commission) to assist
VOTE ACT       states and insular areas with the administration of Federal elections and
               to provide funds to states to help implement these improvements.
               HAVA authorizes payments to states under Titles I and II, as follows:

                   9 Title I, Section 101 payments are for activities such as
                     complying with Title III of HAVA for uniform and
                     nondiscriminatory election technology and administration
                     requirements, improving the administration of elections for
                     Federal office, educating voters, training election officials and
                     poll workers, and developing a state plan for requirements
                     payments.

                   9 Title I, Section 102 payments are available only for the
                     replacement of punchcard and lever action voting systems.

                   9 Title II, Section 251 requirements payments are for complying
                     with Title III requirements for voting system equipment; and
                     for addressing provisional voting, voting information, statewide
                     voter registration lists, and voters who register by mail.

               Title II also requires that states must:

                   9 Have appropriated funds “equal to 5 percent of the total amount
                     to be spent for such activities [activities for which requirements
                     payments are made].” (Section 253(b)(5)).

                   9 “Maintain the expenditures of the State for activities funded by
                     the [requirements] payment at a level that is not less than the
                     level of such expenditures maintained by the State for the fiscal
                     year ending prior to November 2000.” (Section 254 (a)(7)).

                   9 Establish an election fund for amounts appropriated by the state
                     “for carrying out the activities for which the requirements
                     payment is made,” for the Federal requirements payments
                     received, for “such other amounts as may be appropriated under
                     law,” and for “interest earned on deposits of the fund.” (Section
                     254 (b)(1)).




                                       1
                         HAVA funds received and expended by Illinois are as follows:
FUNDING FOR
ILLINOIS                      TYPE OF              AMOUNT                    OUTLAYS
                              PAYMENT             RECEIVED              AMOUNT       AS OF1

                              101                  $11,129,030           $6,215,718       12/31/05
                              102                  $33,805,617          $22,810,128       12/31/05
                              251                  $98,595,252                   $0       09/30/05

                              Totals              $143,529,899          $29,025,846


                         In Illinois, HAVA payments are administered by the State Board of
FINANCIAL                Elections (Board). To account for the payments, HAVA requires states
MANAGEMENT               to maintain records that are consistent with sound accounting
REQUIREMENTS             principles, that fully disclose the amount and disposition of the
                         payments, that identify project costs financed with the payments and
                         with other sources, and that will facilitate an effective audit.

                         In addition, the Commission notified Illinois of other management
                         requirements. Specifically, that states must:

                              9 Comply with the Uniform Administrative Requirements for
                                Grants and Cooperative Agreements with State and Local
                                Governments (also known as the “Common Rule” and
                                published in 41CFR105-71).

                              9 Expend payments in accordance with cost principles for
                                establishing the allowability or unallowability of certain items
                                of cost for federal participation issued by the Office of
                                Management and Budget in Circular A-87.

                              9 Submit annual financial reports on the use of Title I and Title II
                                payments.

                         The objective of our audit was to determine whether Illinois (1)
OBJECTIVE                expended HAVA payments in accordance with the Act and related
                         administrative requirements and (2) complied with the HAVA
                         requirements for replacing punch card or lever voting machines, for
                         establishing an election fund, and for maintaining state expenditures
                         for elections at a level not less than expended in fiscal year 2000.
                         Specifically, we covered fiscal years 2003 through 2006 and reviewed
                         controls to assess their adequacy over the expenditure of HAVA funds


1
 EAC requires states to submit annual reports on the expenditure of Sections 101, 102, and 251 funds. For
Sections 101 and 102, reports are due on February 28 for the activities of the previous calendar year. For
Section 251, reports are due by March 30 for the activities of the previous federal fiscal year.



                                                    2
                         and compliance with certain HAVA requirements for the following
                         activities:

                             9 Accumulating financial information reported to EAC on the
                               Financial Status Reports (Standard Forms number 269).
                             9 Accounting for property.
                             9 Purchasing goods and services.
                             9 Accounting for salaries.
                             9 Charging indirect costs.
                             9 Spending by counties.

                         We also determined whether Illinois had complied with the
                         requirements in HAVA for:

                             9 Establishing and maintaining the election fund.
                             9 Appropriating funds equal to five percent of the amount
                               necessary for carrying out activities financed with Section 251
                               requirements payments.
                             9 Sustaining the State’s level of expenditures for elections.

                         See Appendix 1 for the audit scope and methodology.

                         RESULTS OF AUDIT

                         We concluded that the Board generally accounted for and expended
SUMMARY                  HAVA funds in accordance with requirements. However, we
                         identified:

                             9 a need for the Board to improve its cash and property
                               management procedures and/or processes to ensure that
                               subrecipients expend HAVA funds in a timely manner and
                               account for property in accordance with Federal requirements.
                               Disbursing funds from its interest-bearing Help Illinois Vote
                               Fund2 to subrecipients sooner than needed resulted in lost
                               interest of about $36,000 to the Vote Fund.

                             9 a questionable state expenditure of $3,889 for an unauthorized
                               activity.

                         Regarding significant HAVA compliance requirements, we found that
                         the Board miscalculated its matching fund requirement for Section 251
                         payments, and did not deposit into the Vote Fund interest earned on the
2
  HAVA requires states to establish an election fund, which Section 254(b)(1) of HAVA describes as
containing all requirements payments, state appropriations for carrying out activities for which
requirements payments are made, other appropriations, and interest earned on deposits of the fund.



                                                   3
             matching funds which it had appropriated. Consequently, Illinois owes
             the Vote Fund additional matching funds $189,223 and interest of
             $227,996.

             The Board advanced HAVA funds to counties and to the Office of the
CASH         Secretary of State that exceeded the recipients immediate cash needs.
MANAGEMENT   The cash management requirements included in 41 CFR 105-71.120
             provide that the time elapsing between the transfer of funds and the
             subsequent disbursement should be minimized. In addition, the State
             Board of Elections incorporated a provision in its agreements with the
             counties that the funds provided should be expended within 30 days.
             The Board’s agreement with the Office of the Secretary of State
             identified the funding and expected quarterly expenditures but did not
             include provisions for cash management.

             We found that two of the three counties we visited did not expend all
             funds granted by the Board, and that the Office of the Secretary of
             State did not expend funds at its forecasted rate of spending. Further,
             despite the Board’s requests, neither the counties nor the Office of the
             Secretary of State returned the unspent funds. As a result, we
             estimated that the State’s Help Illinois Vote Fund did not accumulate
             interest totaling about $36,071 on excess advances of approximately
             $1.6 million from the Vote Fund, as follows.

                                                  UNEXPENDED ADVANCES
                                                  Outstanding   Amount                            *Estimate of
                      Recipient                     Since:    Outstanding                         Lost Interest

              Champaign County                    October 7, 2004                  $37,037                  $2,136

              Rock Island County                    March 2, 2006                1,217,986                  15,301

              Secretary of State              December 31, 2005                    353,057              **18,634

                                                                               $1,608,080                 $36,071

              *We used three percent for estimating purposes because the Chief Fiscal Officer, State Board of
              Elections, advised us that the Vote Fund earned interest at an annual rate of approximately three
              percent.

              **Interest began to accrue on March 31, 2005, the date of the first advance payment to the Secretary
              of State. Total payments to the Secretary of State were $1,592,374.


             During our review, Champaign County returned the unexpended
             HAVA funds.




                                              4
                           Recommendations:

                           We recommend that the EAC require the Board to:
                              1. Recover the unexpended funds from the Office of the
                                  Secretary of State and Rock Island County.
                              2. Reimburse the Illinois Vote Fund for the interest lost on the
                                  outstanding advances to Champaign and Rock Island Counties
                                  and to the Office of the Secretary of State.
                              3. Determine the extent of any other outstanding advances to
                                  counties and take the appropriate action as discussed in
                                  Recommendations 1 and 2.
                              4. Reinforce with the entities receiving HAVA funds, the Federal
                                  and Board requirements regarding the time frame for
                                  expending HAVA funds.

                           The three counties we visited did not maintain adequate records of
PROPERTY                   equipment purchased with HAVA funds in compliance with 41 CFR
                           105-71.132. Part 41 CFR 105-71.132 stipulates that property records
                           must be maintained that include a description of the property; a serial
                           number or other identification number; the source of property; who
                           holds the title; the acquisition date; cost of the property; percentage of
                           Federal participation in the cost of the property; the location, use and
                           condition of the property; and any ultimate disposition data including
                           the data of disposal and sale price of the property.

                           The Board’s agreements with the counties did not include a provision
                           to comply with Federal regulations regarding the management of
                           equipment. As a result, at the counties we visited, we found that the
                           property records did not contain all the required information. For
                           example, Tazewell, Adams, and Cook3 counties did not maintain
                           formalized inventory records that included the required data such as
                           funding source, cost, and acquisition date. Instead, the counties
                           maintained records of equipment that was assigned to the various
                           voting precincts. Although these informal records did allow the
                           counties to track the location of the equipment, they did not satisfy all
                           of the control requirements in the CFRs.

                           Recommendations:

                           We recommend that the EAC require the Board to:

                                5. Ensure that the counties comply with the Federal equipment
                                   management requirements.
                                6. Include in future agreements the specific Federal equipment
                                   management requirements.
3
    Cook County was in the process of developing an inventory database for the equipment.



                                                     5
             The Board used $3,889 of Section 101 funds to purchase activity
QUESTIONED   booklets intended to provide students with an understanding about
COSTS        electing the President. The Board distributed the booklets during the
             Illinois state fair. While the booklet did provide information related to
             voting, it appeared to be directed at grade school children. Section
             101(b)(1)(C) of the Help America Vote Act states that the funds can be
             used for educating voters concerning voting procedures, voting rights,
             and voting technology. In addition, number 23 of EAC’s frequently
             asked questions states that Section 101 funds must be expended to
             educate voters or groups of people who meet state voting requirements.
             Since the activity booklets appear to be intended for students not yet
             eligible to vote, we questioned the States purchase cost for the booklets
             of $3,889.

             The Board disagreed with this finding. Its response stated that

                    . . . we believe the benefit [of the activity books] was
                    not only for the children but also for the parents to work
                    with the children in teaching them the importance of the
                    voting process. We believe the benefit to the parents
                    has a value that was sufficient enough to qualify as a
                    HAVA expense.

             Recommendation:

                 7. We recommend that the EAC resolve the questioned costs
                    totaling $3,889.

             Illinois (a) understated its matching contribution by approximately
MATCHING     $189,000 and (b) did not deposit into the State’s Help Illinois Vote
             Fund (Vote Fund) the $5,000,000 that it had appropriated to match the
             Help America Vote Act (HAVA) requirements payment. As a
             condition to receiving requirements payments, Section 253 (b)(5) of
             HAVA requires states to have:

                    . . . appropriated funds for carrying out the activities
                    for which the requirements payment is made in an
                    amount equal to 5 percent of the total amount to be
                    spent for such activities (taking into account the
                    requirements payment and the amount spent by the
                    State) . . .

             Illinois understated its matching funds because it miscalculated its
             matching requirement. In doing so, it applied the 5 percent to only the
             Federal payment of $98,595,252. This resulted in Illinois appropriating
             $5 million. The correct calculation is to first divide the Federal



                                    6
payment by 95 percent to determine the total federal and state funds of
$103,784,476. Then, to arrive at the state match, deduct the Federal
payment ($98,595,252) from the total funds. This results in a state
matching requirement of $5,189,223, or $189,223 more that the state
actually appropriated.

The Board disagreed with this portion of the finding. Its response
stated:
        During the implementation process, many questions
        have arisen regarding the interpretation of the Act
        [HAVA] or supporting Federal rules. These questions
        (including state match questions) have been posed to
        authoritative bodies on the subject (including EAC
        staff), and the answers to these questions to this point
        had not indicated that our calculation of the State Match
        requirement was incorrect or insufficient relative to the
        HAVA Law. The SBE [State Board of Elections] also
        respectfully submits that the HAVA language regarding
        this match calculation is somewhat confusing and
        ambiguous, and therefore could be interpreted by a
        reasonable person in a manner different than that used
        by EAC.

HAVA in Section 254 (b)(1) also requires states to deposit the funds
appropriated to match the requirements payment into a state election
fund, described as follows:

       . . . a fund which is established in the treasury of the
       State government, which is used in accordance with
       paragraph (2), and which consists of the following
       amounts:
              (A) Amounts appropriated or otherwise made
                  available by the State for carrying out the
                  activities for which the requirements
                  payment is made to the State under this
                  part.
              (B) The requirements payment made to the
                  State under this part.
              (C) Such other amounts as may be
                  appropriated under law.
              (D) Interest earned on deposits of the fund.

We found that Illinois did not, however, deposit the $5,000,000 into its
Vote Fund. This occurred because state officials were not aware of the
requirement to deposit the funds in the Vote Fund and because State
law required the funds to be deposited in the Illinois capital



                       7
                         development fund. As a result, Illinois lost interest that it would have
                         earned had it deposited its full matching fund requirement into the
                         Vote Fund.

                         According to Chief Fiscal Officer, State Board of Elections, the Vote
                         Fund earned interest at an annual rate of approximately 3 percent.
                         Using the 3 percent interest rate, we estimated lost interest to be about
                         $227,996.4

                         The Board did not agree with this portion of the finding. Its response
                         stated

                                  . . . SBE respectfully submits that the sometimes
                                  confusing and ambiguous language in this area of the
                                  HAVA legislation is a significant factor in SBE’s
                                  assumption that amounts ‘otherwise made available’ (as
                                  opposed to direct appropriations and deposit) would be
                                  sufficient to meet the State match contribution rule. In
                                  addition, the significant fiscal crunch being experienced
                                  by the State of Illinois (as well as other states) severely
                                  limited the possible sources for this sizable State
                                  contribution.

                         Recommendation:

                              8. We recommend that the EAC require the Board to deposit state
                                 funds of $417,219 ($189,223 under match plus interest of
                                 $227,996) into the Vote Fund.




4
 We calculated the $227,996 by applying the 3 percent rate to outstanding monthly balances of the
matching fund appropriation through the final disbursement of funds in February 2006.



                                                    8
                                                   APPENDIX 1

SCOPE AND METHODOLOGY

To accomplish our objective, we reviewed:

9 The prior single audit report and other reviews related to the
  Board’s financial management systems and the HAVA program for
  the last 2 years.
9 Policies, procedures and regulations for Illinois’ management and
  accounting systems as they relate to the administration of HAVA
  programs.
9 Inventory lists of all equipment purchased with HAVA funds.
9 Major purchases.
9 Supporting documents maintained in the accounting system for
  payments made with HAVA funds.
9 Support for reimbursements to counties.
9 Certain Illinois laws that impact the election fund.
9 Appropriations and expenditure reports for State funds used to
  maintain the level of expenses for elections at least equal to the
  amount expended in fiscal year 2000 and to meet the five percent
  matching requirement for section 251 requirements payments.
9 Information regarding source/supporting documents kept for
  maintenance of effort and matching contributions.
We also interviewed appropriate Board employees about the
organization and operation of the HAVA program.

We conducted our audit in accordance with Government Auditing
Standards issued by the Comptroller General of the United States. As
such, we included tests and procedures as considered necessary under
the circumstances to evaluate the Board’s controls over the
administration of HAVA payments. Because of inherent limitations, a
study and evaluation made for the limited purposes of our review
would not necessarily disclose all weaknesses in administering HAVA
payments.




                      9
                                                        APPENDIX 2

                   MONETARY IMPACT

                      Funds to be Put   Questioned    Additional Funds
    Description        to Better Use      Costs         for Program

Cash Management               $36,071

Activity Booklet                             $3,889

Matching:
  Under match                                                $189,223
  Interest                                                    227,996

Totals                         36,071         3,889           417,219




                                  10
                                    STATE BOARD OF ELECTIONS                                               Appendix 3
                                        STATE OF ILLINOIS                                                  Page 1 of 2
1020 South Spring Street, P.O. Box 4187                                                              BOARD MEMBERS
Springfield, Illinois 62708                                                                      Jesse Smart, Chairman
21717824141 TTY: 2171782-1518                                                             Wanda Rednour, Vice Chairman
Fax: 2171782-5959                                                                                          Patrick Brady
                                                                                                              John Keith
James R. Thompson Center                                                                             William McGuffage
100 West Randolph, Sulte 14-100                                                                             Albert Porter
Chicago, Illinois 60601                                                                                Bryan Schneider
3121814-6440 TTY: 3121814-6431                                                                           Robert Walten
Fax: 31 21814-6485
                                               XECUTNE DIRECTOR
                                                 Daniel W. White


                                                                    October 2, 2006



       Roger La Rouche, Acting Inspector General
       U.S. Election Assistance Commission
                                    -
       1225 New York Avenue NW Suite 1100
       Washington, DC 20005


        Mr. La Rouche:

       The Illinois State Board of Elections (SBE) has evaluated the findings contained in your draft EAC audit
       report of Help America Vote Act (HAVA) activities dated September 1, 2006. Please find below the
       State Board of Elections' responses to these tentative findings:


        Findinn #I:                       -
                  Cash management return of unexpended advances from specific counties.

        SBE Response: Concur. The SBE will take steps to correct this finding and recover outstanding funds
        and interest lost in the HAVA fund due to entities not spending the funds provided to them within the
        required 30-day period. The SBE will also notify the appropriate County Boards and County Auditors of
        each jurisdiction in question in order to facilitate payment of outstanding amounts and an estimate of
        tost interest which will be in turn deposited into the HAVA fund.


        Findina #2: Grant sub-recipients did not maintain adequate property control records for
        equipment purchased with HAVA grant monies.

       SEE Response: Concur. SBE did contain language in original sub-recipient grant agreements that
       expenditures made by local election sub-recipients with HAVA grant monies must be recorded and
       maintained according to all applicable Federal and State statutes. SBE will initiate additional
       communications with all sub-recipient counties to further explain specific Federal property control
       requirements and distribute Federal property control guidelines for corrective action purposes. SBE has
       already enhanced sub-recipient grant application documents to place added emphasis on compliance
       with Federal property control rules as a condition of receiving HAVA sub-recipient monies. Furthermore,
       SBE will also monitor sub-recipient feedback from future grant activities to help ensure that these rules
       are being applied to HAVA-purchased equipment items at the local jurisdiction level.


        Findinn #3: Questioned Costs (student activity booklets).

       SBE Response: Disagree. Although the SBE understands the Election Assistance Commission's
       philosophy on the issue of the activity books, we believe there are benefits not just to the children. We
       believe that the benefit was not only for the children but also for the parents to work with the children in
       teaching them the importance of the voting process. We believe the benefit to the parents has a value
       that was sufficient enough to qualify as a HAVA expense.
                                                            11
                                                 www.eleclions.il.gov
                                                                                                   Appendix 3
                                                                                                   Page 2 of 2
Findina M: Undercalculation of State Match requirement and deposit into dedicated HAVA fund.

SEE Res~onse:Disagree. During the tenure of the HAVA program, the SBE has taken great care to
ensure that the language and mandates of the Help America Vote Act of 2002 have been interpreted
and implemented in an accurate and reasonable manner. During this implementation process, many
questions have arisen regarding interpretation of the Act or supporting Federal rules. These questions
(including State match questions) have been posed to authoritative bodies on the subject (including
EAC staff), and the answers to these questions to this point had not indicated that our calculation of the
State Match requirement was incorrect or insufficient relative to the HAVA law. The SBE also
respectfully submits that the HAVA language regarding this match calculation is somewhat confusing
and ambiguous, and therefore could be interpreted by a reasonable person in a manner different than
that used by the EAC. SBE continues to place high priority on full compliance with all Federal mandates
in our implementation of HAVA program objectives , and would like to initiate discussion with the EAC
on other possibilities to 'make up' this deficiency in the State match calculation. Such possibilities
include, but are not limited to, inclusion of surplus SBE 'maintenance of effort' spending over FY2000
levels and excess local jurisdiction contributions in fulfillment of HAVA Statellocal contribution quotas.

With regards to the deposit of State match contributions directly into the dedicated HAVA fund, SBE
respectfully submits that the sometimes confusing and ambiguous language in this area of the HAVA
legislation is a significant factor in SBE's assumption that amounts 'otherwise made available' (as
opposed to direct appropriation and deposit) would be sufficient to meet the State match contribution
rule. In addition, the significant fiscal crunch being experienced by the State of Illinois (as well as other
states) severely limited the possible sources for this sizeable State contribution. As a result it was the
Illinois legislature, acting in good faith and not the SBE who directed that a spending authority
contribution 'made available' from a shared bond fund would be the most economicaily feasible source.
This funding option was decided by the lllinois legislature as the best compliant resource, and not
recommended by the SBE. Spending from this fund is restricted, however, and can not be 'transferred'
over to other funds prior to direct expenditure to vendors.

Other issues also factor in to SBE's opinion on this draft finding. A complete discussion of each of
these issues, however, would be outside the scope of this summary document. Consequently, the SBE
would also like to open a dialogue with the EAC to examine potential solutions to this particular issue.



The SBE's primary goal in resolving each of the findings listed above is a solution that is compliant, fair,
and does not put unreasonable financial hardship on either the EAC or the State. We await word from
your office as to the next process step in resolving these findings. Until then, if you have any questions
regarding these responses or other HAVA issues, please feel free to contact our office at (217) 782-
4141.



                                                           Sincerely.



                                                           Daniel W. White
                                                           SBE Executive Director



Cc:     Becky Glazier, HAVA Operations Manager
        Michael Roate. Chief Fiscal Officer
                      The OIG audit mission is to provide timely, high-quality
                      professional products and services that are useful to OIG’s clients.
                      OIG seeks to provide value through its work, which is designed to
                      enhance the economy, efficiency, and effectiveness in EAC
OIG’s Mission         operations so they work better and cost less in the context of
                      today's declining resources. OIG also seeks to detect and prevent
                      fraud, waste, abuse, and mismanagement in these programs and
                      operations. Products and services include traditional financial and
                      performance audits, contract and grant audits, information systems
                      audits, and evaluations.


                      Copies of OIG reports can be requested by e-mail.
                      (eacoig@eac.gov).

                      Mail orders should be sent to:
Obtaining
Copies of             U.S. Election Assistance Commission
                      Office of Inspector General
OIG Reports
                      1225 New York Ave. NW - Suite 1100
                      Washington, DC 20005
                      To order by phone: Voice: (202) 566-3100
                                          Fax: (202) 566-3127


To Report Fraud,      By Mail: U.S. Election Assistance Commission
Waste and Abuse                Office of Inspector General
Involving the U.S.             1225 New York Ave. NW - Suite 1100
Election Assistance            Washington, DC 20005
Commission or Help
                      E-mail:   eacoig@eac.gov
America Vote Act
Funds                 OIG Hotline: 866-552-0004 (toll free)

                      FAX: 202-566-0957
